U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Merle Denezpi v. United States of America,
S.Ct. No. 20-7622

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 26,
2021, and placed on the docket on March 31, 2021. The government’s response is due on May
19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7622
DENEZPI, MERLE
USA

THERESA M. DUNCAN
DUNCAN EARNEST LLC
PO BOX 2769
SANTA FE, NM 87504

